i

No.

IN THE
SUPREME COURT OF THE UNITED STATES
♦

Supreme Court, U.S.
FILED

NOV - 3 2020
ANDREY L. BRIDGES
OFFICE OF THE CLERK

Petitioner-Appellant,

v.

DAVID GRAY, WARDEN,
Respondent-Appellee,

ON Petition for Writ of Certiorari
to the United States Court of Appeals for the Sixth Circuit

PETITION FOR WRIT OF CERTIORARI

This request to Invoke, is presented in good faith and not for delay.

Respectfully submitted,
Andrey j/. Bridges #M350-493
Belmont Correctional Institution
P.O. Box 540
68518 Bannock Road
St. Clairsville, Ohio 43950
8

! RECEIVED
NOV 1 0 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTIONS PRESENTED

The issue here goes beyond a miscarriage of justice. It’s lower court’s blatant and
outright refusal to administer justice, when law warrants otherwise; it’s contrary to
what this court in Mutchum v. Foster. 407 U.S. 225, 240, (1972) proclaimed,
“throws open the doors of the United States Courts to those whose rights under the
Constitution are denied or impaired”.

I: When the doors of the Court[s] are willfully, maliciously, and improperly closed
to non-influential, self-represented persons, like petitioner thereby foreclosing (1) a
civil forum of justice, and (2) denies petitioner his day in court”, simply because the
courts want to protect their own kind via abuse of power, does this court’s refusal to
intervene and foreclose a civil forum send a disturbing message that the ones in
(politics) remains the only avenue for attention/justice?

II: Did the Sixth Circuit Court of appeals deny appellant the right to be heard and
have a full appellate review as provided by the United States Constitution of the
First Amendment.

Ill: If the Northern District Court lacks jurisdiction because an appeal was taken in
the Sixth Circuit Court of Appeals, does waiting for that appeal to be fully
determined, deny appellant the right to appeal in a (“timely”) latter proceeding.

9

PARTIES TO THE PROCEEDING
1.

The parties to the proceeding in which is asked to be reviewed are, Andrey L.
Bridges, at Belmont Correctional Institution, P.O. box 540, St. Clairsville, Ohio
43950; (Petitioner/Appellant).

2. The parties to the proceeding in which is asked to be reviewed are, David Gray

Warden of Belmont Correctional Institution, P.O. Box 540, St, Clairsville, Ohio
43950; and his respective attorney, at the Attorney General Office, 150 East
Gay street, Columbus, Ohio 43215. (Respondent/Appellee).

3. The parties to the proceeding in which is asked to be reviewed are, Sixth Circuit

Court of Appeals, 100 east Fifth Street, Potter Stewart Courthouse, Cincinnati,
Ohio 4502-3988; (Judgments and Rulings).

4. The parties to the proceeding in which is asked to be reviewed are, Northern
District Court of Ohio, of the Eastern Division, Carl B Stokes U.S. Courthouse,
801 Superior Ave. Cleveland, Ohio 44113.; (Judgments and Rulings).
5. The parties to the proceeding in which is asked to be reviewed are, Cuyahoga
Common Pleas Court, 1200 Ontario Street, Cleveland, Ohio 44113, case No CR574201-A, State of Ohio - v. - Andrey L. Bridges; (Judgments and Rulings).
6. And, in the lower courts who administer justice, certain of its personnel and

judges as to their Non-judicial actionable acts, Ohio judicial Counsel, et al.

10

TABLE OF CONTENTS
Page[s] of Document(s)
QUESTIONS] PRESENTED

9

PARTIES TO THE PROCEEDING

10

TABLE OF AUTHORITIES

13-17

OPENIONS BELOW

18-21

JURISDICTION

21

STATUES AND CONSTITUTIONAL
PROVISIONS INVOLVED................

1-42

STATEMENT OF THE CASE AND FACTS

22-24

REASON FOR GRANTING THE WRIT

28-39

Summary of Argument

25-28

ARGUMENT

28-39

RELIEF SOUGHT
CONCLUSION

22

39-42

APPENDIX: Submitted in Reported and Unreported form[s] for review: “see’ Case[s]
In Document and in proper court as stated in brief, via; court dockets online,
Appendix A: in volumes (if necessary); Cuyahoga Court of Common Pleas
Appendix B: in volumes (if necessary); Eighth Appellate District Court
Appendix C: in volumes (if necessary); Ohio Supreme Court
Appendix D: in volumes (if necessary); Northern District, Eastern Division
Appendix E: in volumes (if necessary); Sixth circuit Court of Appeals

TABLE OF AUTHORITIES AND CASE[S} FOR REVIEW

CASE[S] FOR REVIEW
Page [s]
State v. Bridses. Case No. 100805 Lexus 2014-0hio-4570.....

15,

State v. Bridges, at; Case No. 100805 Lexus 2015-Ohio-1447

15

State v. Bridges, 574201A of Cuyahoga County common pleas court 2014,
and 8th Dist. Cuyahoga Nos. 101938 (Oct. 1, 2014),
and 101942 (Oct. 31, 2014).............................................................................

15

State v. Bridges, Lexus 2015-Ohio-5428

15

State v. Bridges, Lexus 2016-Ohio-7298

15

State v. Bridges, 2015-Ohio-1447 ..........

15

State v. Bridges, Lexus 2018-Ohio-4113

15

Bridges v. Sloan, 2018 U.S. Dist. LEXIS 221744

16, 19

Bridges v. Sloan, 2019 U.S. Dist. LEXIS 29542

16, 19

Bridges v. Sloan, 2019 U.S. Dist. LEXIS 29542

16,19

Bridges v. Gray, 2019 U.S. App. LEXIS 38285

16, 19

Bridges v. Gray, 2020 U.S. App. LEXIS 387

16,17

Bridges v. Gray, 2020 U.S. App. LEXIS 25369

16,17

Bridges v. Gray, 2020 U.S. App. LEXIS 31667

17,

Bridges v. Gray, l:15-cv-02556

15, 17

12

STATUES
1. Title 28, Section 1291 of the United States Code
2. 28 U.S.C. § 2107(a);
3. Fed. R. App. P. 4(a)(1)(A), 26(a)
4. Federal Rule of Civil Procedure 60(b)

CONSTITUTIONAL PROVISIONS

1. United States Constitution FIRST Amendment violation

1-38

2. United States Constitution Amendment FITH violation

1-38

3. United States Constitution Amendment SIXTH violation

1-38

4. United States Constitution Amendment EIGHTH violation
5. United States Constitution Amendment FOURTEENTH violation

OTHER AUTHORTIES FOR REVIEW

Mutchum v. Foster. 407 U.S. 225, 240, (1972).....

9

Clark v. Manufacturers Trust Co.. 337 U.S. 953

21

Goldbaum v. United States. 347 U.S. 1007;

21

Banks v. United States. 347 U.S. 1007;

21

McFee v. United States. 347 U.S. 1007;

21

Remmer v. United States. 348 U.S. 904;
13

21

1-38
1-38

Florida ex rel. Hawkins v. Board of Control. 350 U.S. 413;

21

Boudoin v. Lvkes Bros. S. S. Co.. 350 U.S. 811;

21

Cahill v. New York. N. H. & H. R. Co., 351 U.S. 183,

21

Achilli v. United States. 352 U.S. 1023,

21

Bushier v. Marruio. 86 N.M. 399, 524 P.2d 1015, 1019;

21

Dupler v. Seubert. 69 WIS. 2d 626, 230 N.W. 2d 626, 631

22

Godbey v. Godbev. 70-Ohio-App. 555, 44 N.E. 2d 810, 813.

22

Landry v. Daley. D.C. Ill 280 F. Supp, 968, 970.

22

People v. Lopez. 251 CAL. App. 2d, 918, 60 Cal. Rptr, 72, 76

22

People v. Bernhardt. 222 CA 2d 567, 35 Cal. _Rptr. 401, 409,

23

Houston v. Leyden Motor Coach Co. 102 Ill. App. 2d 348,
243 N.E. 2d 293, 296 .................................................................

23

Graf v. Ford Motor Co.. 102 Ill. App. 2d 390, 243 N.E. 2d 337, 341

23

State ex rel. Smith v. Smith. 197 OR. 96, 252 P. 2d 550 555

23

Roberts v. State IND.. 492 N.E. 2d 310, 313;

23

Denial of error of Coram Nobis.

23

Moore v. Dempsey. 261 U.S. 86;

24

Mooney v. Holohan. 294 U.S. 103;

24

Bowen v. Johnston. 306 U.S. 19, 24.

24

Actual Innocence.

24

U.S. v. Friday. D.C. Mich.. 404 F.supp. 1343, 1346.

24

Actual Total Loss of Freedom.

24

Burden of Proof.

24
14

In re Winshin. 397 U.S. 358, 90 S.Ct. 1068, 25 L.Ed. 2d 368;

24

Corpus Delicti.

24

State v. Edwards. 49-Ohio-St. 2d 31, 358 N.E. 1051, 1055

24

Mallard v. U.S. Dist. Court for S. Dist. of Iowa.
490 U.S. 296,309, (1989).

25

Tennessee v. lane. (2004) 541 U.S. 509,

25

Ex parte Republic of Peru. 318 U.S. 578, 583, (1943);

26

Roche v. Evaporated Milk assn.. 319 U.S. 21, 26, (1943)

26

U.S. v. U.S. Dist Court. 334 U.S. 258, (1948)”,

27

Will v. United States. 389 U.S. 90, 95-96, (1967)

27

Bankers Life Casualty Co. v. Holland. 346 U.S. 212, 217, (1953)

27

De Beers Consolidated mines. Ltd. V. United states.
325 U.S. 212, 217, (1945),..................................................

27

Mallard v. U.S. Dist. Court for S. Dist of Iowa. 490 U.S. 296, 309, (1989)
La Buy v. Howes Leather Co.. 352 U.S. 249, 256-258, (1957)

27

27, 28

McClellan v. Carland. 217 U.S. 268, 279 (1989)

27-28

Davis v. United States. 417 U.S. 333, 346, (1974)

28

Cheney v. U.S. Dist. Court for D.C.. 542 U.S. 367, 371 (2004)

29

Brady v. Maryland. 373 U. S. 83, 87, 83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963)

Kyles. 514 U. S., at 434-435, 115 S. Ct. 1555, 131 L. Ed. 2d 490

29

32-33

Steel Co. v. Citizens for a Better Env't. 523 U.S. 83, 95, 118 S. Ct. 1003, 140 L.
Ed. 2d 210 (1998

34

Warth v, Selden. 422 U.S. 490, 498,95 S. Ct. 2197, 45 L. Ed. 2d 343 (1975),

15

34

DaimlerChrvsler Corp. v. Cuno. 547 U.S. 332, 126 S. Ct. 1854, 1867,
164 L. Ed. 2d 589 (2006)...............................................................................

34

Steel Co.. 523 U.S. at 102-03

34

Church of Scientology v. Foley, supra, note
18, 205 U.S.App.D.C. at 370 n.46, 640 F.2d at 1341 n.46.

. 36

United, States v. Robinson. 361 U.S. 220,

36

Lemke v. United States. 346 U.S. 325.

36

Post v. Bradshaw. 422 F.3d 419,421 (6th. Cir.2005),

37

First Nat'l Bank of Salem. Ohio v. Hirsch. 535 F.2d 343 (6th Cir. 1976)....37
Post v. Bradshaw. 422 F.3d 419,

37

16

No.

IN THE
SUPREME COURT OF THE UNITED STATES
♦

ANDREY L. BRIDGES
Petitioner-Appellant,

v.
DAVID GRAY, WARDEN,
Respondent-Appellee,
♦

ON Petition for Writ of Certiorari
to the United States Court of Appeals for the Sixth Circuit

PETITION FOR WRIT OF CERTIORARI

Based on upholding the United States Constitution and on this Honorable court
interpretation of upholding the United States Constitution to all citizen needs. This
“Respective Court”, and “Honorable Justice[s]; are humbly asked to invoke
jurisdiction of such styled case, as it is of Great Importance, for this court to
invoke.
Opinions Below:
17

At issue is ongoing violations of a First, Fifth, Sixth, Eighth, and Fourteenth
Amendments of the United States Constitution; violating a United States Citizen.
1. These violation[s] arise from the unconstitutional conviction set in Cuyahoga
County Common Pleas Court, Case No. Cr. 574201-A. Where appellant was
convicted for murder, tampering with evidence and gross abuse of corpse.
2. Appellant filed an appeal through court appointed attorney, “See”
State v. Bridges. Case No. 100805 Court of Appeals of the Eighth District, the case
was Affirmed.
3. Appellant then filed an application to re-open under state 26(B) in which the
s> court held the presentment was outside the record and not appropriate in the style
of reconsideration. “See” State v. Bridges, at; Case No. 100805 at, 2015-Ohio-1447.
4. Appellant then filed to the Ohio Supreme court seeking jurisdiction, that court
denied to accept jurisdiction.
5. Upon appellant direct appeal while pending, he filed a post -conviction, the
appeal court unconstitutionally denied that appeal for not filing the record, even
though the record was requested for preparation to transmit to the appeal
court. “See” State v. Bridges. 574201A of Cuyahoga County common pleas court
2014, and 8th Dist. Cuyahoga Nos. 101938 (Oct. 1, 2014), and 101942 (Oct. 31,
2014). Appellant then filed a successive post-conviction, “See” State v. Bridges, at,
Nos. 102930 and 103090, State v. Bridges. Lexus 2015-Ohio-5428.
Since, there were different orders directing appellant he should have raised his
claims on appeal, he submitted that is why appellant raised the 26(B), the court

18

then re-directed the issues in that post-conviction proceeding, and re-placed the
claims stating those issues should have been brought on direct appeal, and
appellant went back to filing successive(s) petition “See” State v. Bridges, at; Nos.
103634 and 104506, to correct and see why (all courts pinged ponged his
claims). Giving petitioner no legal right to address the miscarriages of
justice(s). State v. Bridges. 2016-Ohio-7298
6. “As means to get fair reviews he filed a habeas corpus, “See” Bridges v. Sloan
Case No. l:15-cv-02556 at; 2018 U.S. Dist. LEXIS 221744, and, 2020 U.S. App.
LEXIS 25369. The District court did not review or over looked his Traverse and
(Exhibits) as the clerk did not file them, as well as not seeing that petitioner did
attest to the states finding of fact, as well as other matters alleging both federal and
United States Constitution violations, Because of the overlooked review, the
Petition was denied,
7. Appellant then filed an appeal to the United States Sixth Circuit Court of
Appeals court, “See” (appeal No. 19-3297) for Certificate of appealability, (6th Cir.
Nov. 21, 2019). While this appeal was pending appellant filed his 60(b) application
on 7-12-2019; “See” Bridges v. Gray. l:15-cv-02556, The district court denied the
motion stating in “Order” he did not have jurisdiction while the appeal was pending
in the Sixth Circuit. Ultimately, the Sixth Circuit Court of Appeals denied appellant
certificate of appealablity, on 11-22-2019. “See” also for case for failure to
adjudicate, Bridges v. Sloan. 2019 U.S. Dist. LEXIS 29542, Bridges v. Sloan.
2019 U.S. Dist. LEXIS 29542, Bridges v. Gray. 2019 U.S. App. LEXIS 38285,

19

Bridges v. Gray. 2020 U.S. App. LEXIS 387, Bridges v. Gray. 2020 U.S. App.
LEXIS 25369, Bridges v. Gray. 2020 U.S. App. LEXIS 31667
8. Appellant then filed his Timely 60(b) to the District court because the first
60(b) was without jurisdiction in the district court. Once the appeal was denieddismissed, Appellant filed the 60(B) and the district court filed it in March, 2020
which the district court returned the filed motion with a copy of, Bridges v. Sloan.
l:15-cv-02556 Doc# 45. Appellant then filed a timely reconsideration of 60(b)
motion, the district again filed it and again sent back the motion with a copy of
Bridges v. Sloan. l:15-cv-02556 Doc# 45. “See” also Doc#70 and all
attachments. Not giving petitioner a right to address, or redress.
9. In attempt to have his timely 60(b) motion heard fairly, Appellant filed in the
Sixth Circuit Court of appeals, Case No. 20-3493 (6th Cir. 4-22-2020) with aiding
exhibits showing he is getting futile responses, and the District Court is not filing
any of his legal Constitutional claims, motions or briefs. Not stating specific
reason or cause.
In this attempt, appellant demonstrated the filings by its date(s) so he could
appeal the new timely 60(b) motion in this Circuit Court. The Sixth Circuit Court of
appeals on Case No. Bridges v. Gray. 20-3493, 2020 U.S. App. LEXIS 25369;
August 10, 2020, may have mistakenly overlooked the filings and went off the
docket dates, and dismissed the appeal for lack of jurisdiction. Appellant then filed
a timely en banc/ reconsideration in which was denied on October 5, 2020,
Case No.20-3493, Bridges v. Gray. 2020 U.S. App. LEXIS 25369

20

JURISDICTION:
Petitioner/Appellant, now comes timely within the applicable days to request
certiorari, under 28 U.S.C.§1254(1), and 28 U.S.C.§1651(a)(b); Article III of U.S.
Constitution.
RELIEF SOUGHT
For petitioner to have his day in court and allow him his equal Protection of Law
Due process of Law, and his First Amendment; by allowing him to redress the lower
court fairly, by allowing the District court to review his 60(b) application or a writ of
freedom by the holding of the Fourteenth Amendment to the United States
Constitution.

FACTS / STATMENT OF THE CASE
1. This case arises from the unconstitutional conviction set in Cuyahoga County
Common Pleas Court, case No. Cr. 574201-A. Where appellant was convicted for
murder, tampering with evidence and gross abuse of corpse.
2. Appellant filed an appeal through court appointed attorney, “See”
State v. Bridges. Case No. 100805 Court of Appeals of the Eighth District, the case
was Affirmed.
3. Appellant then filed an application to re-open under state 26(B) in which the
court held the presentment was outside the record and not appropriate in the style
of reconsideration. “See” State v. Bridges, at; Case No. 100805 at, 2015-Ohio-1447.

21

4. Appellant then filed to the Ohio Supreme court seeking jurisdiction, that court
denied to accept jurisdiction.
5. Upon appellant direct appeal while pending, he filed a post -conviction, the
appeal court unconstitutionally denied that appeal for not filing the record, even
though the record was requested for preparation to transmit to the appeal
court. “See” State v. Bridges, 574201A of Cuyahoga County common pleas court
2014, and 8th Dist. Cuyahoga Nos. 101938 (Oct. 1, 2014), and 101942 (Oct. 31,
2014). Appellant then filed a successive post-conviction, “See” State v. Bridges, at,
Nos. 102930 and 103090, Since, there were different orders directing appellant he
should have raised his claims on appeal, he submitted that is why appellant raised
the 26(B), the court then re-directed the issues in that post-conviction proceeding
and re-placed the claims stating those issues should have been brought on direct
appeal, and appellant went back to filing successive(s) petition “See” State v.
Bridges, at; Nos. 103634 and 104506, to correct and see why (all courts pinged
ponged his claims). Giving petitioner no legal right to redress the
miscarriages of justice(s).
6. “As means to get fair reviews he filed a habeas corpus, “See” Bridges v. Sloan
Case No. l:15-cv-02556 at; 2018 U.S. Dist. LEXIS 221744, and, 2020 U.S. App.
LEXIS 25369. The District court did not review or over looked his Traverse and
(Exhibits) as the clerk did not file them, as well as not seeing that petitioner did
attest to the states finding of fact, as well as other matters alleging both federal and

22

United States Constitution violations, Because of the overlooked review, the
Petition was denied,
7. Appellant then filed an appeal to this court, “See” (appeal No. 19-3297) for
Certificate of appealability, (6th Cir. Nov. 21, 2019). While this appeal was pending
appellant filed his 60(b) application, on 7-12-2019; “See” Bridges v. Gray. l:15-cv02556, The district court denied the motion stating in “Order” he did not have
jurisdiction while the appeal was pending in the Sixth Circuit. Ultimately, The
Sixth Circuit Court of Appeals denied appellant certificate of appealablity, on 11-222019.
8. Appellant then filed his Timely 60(b) to the District court because the first
60(b) was without jurisdiction in the district court. Once the appeal was denieddismissed, Appellant filed the 60(B) and the district court filed it in March, 2020
the district court returned the filed motion with a copy of, Bridges o. Sloan. 1:15cv-02556 Doc# 45. Appellant then filed a timely reconsideration of 60(b) motion, the
district again filed it and again sent back the motion with a copy of Bridges v.
Sloan. l:15-cv-02556 Doc# 45. “See” also Doc#70 and all attachments. Not
giving petitioner a right to redress.
9. In attempt to have his timely 60(b) motion heard fairly, Appellant filed in this
court, “See” Case No. 20-3493 (6th Cir. 4-22-2020) with aiding exhibits showing he
is getting futile responses, and the district court is not filing any of his legal
Constitutional claims, motions or briefs. Not stating specific reason or cause.

23

In this attempt, appellant demonstrated the filings by its date(s) so he could
appeal the new timely 60(b) motion in this Circuit Court. The Sixth Circuit Court of
Appeals on August 10, 2020, may have mistakenly overlooked the filings and went
off the docket dates, and dismissed the appeal for lack of jurisdiction.
Summary of Argument
1)

The importance of this case is desperately warranting this courts attention in

the manner in which the court has exercised its power over the court’s own
judgments, both in civil and criminal cases. “See” Clark v. Manufacturers Trust
Co.. 337 U.S. 953, Goldbaum v. United States. 347 U.S. 1007; Banks v. United
States. 347 U.S. 1007; McFee v. United States. 347 U.S.
1007; Remmer v. United States. 348 U.S. 904; Florida ex rel.
Hawkins v. Board of Control. 350 U.S. 413; Boudoin v. Lvkes Bros. S. S. Co..
350 U.S. 811; Cahill v. New York. N. H. & H. R. Co., 351 U.S. 183,
Achilli v. United States. 352 U.S. 1023.
2) In other words, the avenue petitioner comes now, is of such course that can
request this “Honorable” Court and “Respective” Justice’s to rule on the merits.
Because there is a good chance this court, while reviewing the case will find his
(“conviction and denial of all redress”) is:
a) Wrongful, as it so, all rulings of the lower courts have implied infringement
of Amendment 5, 6, 8, and 14; of the United States Constitution, and may
result from disobedience to unlawful authority, “Quoting”; Bushier v.
Marruio. 86 N.M. 399, 524 P.2d 1015, 1019;

24

b) False Imprisonment, where Bridges is unlawfully under detention,
whereby he is denied his personal liberty, “Quoting”; Dupler v. Seubert. 69
WIS. 2d 626, 230 N.W. 2d 626, 631.
c) Impression. Case First, this case is a precedent one, presenting a wholly
new state of facts, one involving a question that may have never before
determined.
d) Improper to the United, States Constitution. Not suitable, unfit, not
suited to the character, time, or place. “Quoting”; Godbev v. Godbev. 70Ohio-App. 555, 44 N.E. 2d 810, 813. And not in accordance with facts, truth,
or right procedure and not in accord with propriety, modesty, good taste, or
good manners, “Quoting”; Landry v. Daley. D.C. Ill 280 F. Supp, 968, 970.
e) Failure of Justice, the defeat of a particular right, or failure of reparation
for the wrongs Bridges faced in the lower court[s], from lack and inadequacy
of a legal remedy enforcement of Bridges to redress the court of law, also
known as miscarriage of justice.
f) Miscarriage of Justice. All the lower court [s] decision and outcome of legal
proceeding that is prejudicial, and is inconsistence with substantial rights,
used in constitutional standards to deny Bridges, are in reversible error. It
makes a reasonable probability of more favorable outcome for Bridges,
People v. Lopez. 251 CAL. App. 2d, 918, 60 Cal. Rptr, 72, 76. Warranting
reversal should be declared, when this court, after examination of entire

25

cause, including the evidence, is of opinion that it is reasonably probable that
a result more favorable to Bridges appealing would have been reached in
absence of error, “Quoting”; People v. Bernhardt. 222 CA 2d 567, 35 Cal.
Rptr. 401, 409.
g) Manifest. “Quoting”; Houston v. Leyden Motor Coach Co. 102 Ill. App. 2d
348, 243 N.E. 2d 293, 296 “See” also, Grafv. Ford Motor Co.. 102 Ill. App.
2d 390, 243 N.E. 2d 337, 341. Where this court will find abusive and
prejudicial denials.
h) Error. “Quoting”: State ex rel. Smith v. Smith. 197 OR. 96, 252 P. 2d 550
555. Where, all rulings in Bridges case at the lower level are in conflict with
each other and when shown still denied.
i) Fundamental unfair. “Quoting”; Roberts v. State IND.. 492 N.E. 2d 310
313; Where this court will see that Bridges CO A was denied as not raising a
constitutional claim, yet the record and arguments demonstrates otherwise.
j) Denial of error of Coram Nobis, the issue here was appropriately raised
by Bridges in his habeas corpus petition. The facts relied on are dehors the
record and the effect on the judgment was not open to consideration and
review on appeal. The lower courts refused to review, “But” In such
circumstances the use of the writ in the federal courts to test the
constitutional validity of a conviction for crime is not restricted to those cases
where the judgment of conviction is void for want of jurisdiction of the trial
court to render it.

26

extends also to those exceptional cases where the conviction has been in
disregard of the constitutional rights of the accused, and where the writ is the
only effective means of preserving his rights. Quoting”; Moore v. Dempsey.
261 U.S. 86; Mooney v. Holohan. 294 U.S. 103; Bowen v. Johnston. 306
U.S. 19, 24.
k) Actual Innocence, real existing presenting in fact; the absence of guilt; free
from guilt, Quoting”; U.S. v. Friday. D.C. Mich.. 404 F.supp. 1343, 1346.
1) Actual Total Loss of Freedom. Constitution. Constitution Law,
Constitutional Protections, Constitutional right[s], Constitutional Questions,
by not reviewing or fairly De Novo, Bridges claims, or reviewing the record
and misapplying denial[s] for COA, in the Lower courts.
m) Burden of Proof, quoting”; In re Winship. 397 U.S. 358, 90 S.Ct. 1068, 25
L.Ed. 2d 368; The lower court[s] failed to fairly apply this standard, and
unconstitutionally; opinioned, ruled, and restricted Bridges 14 Amendment to
the United States Constitution.
n) Corpus Delicti, the body of the crime was unconstitutionally determined to
the elements of the crime and facts and evidence was erred when connected
to federal standards of law. Quoting”; State v. Edwards. 49-Ohio-St. 2d 31,
358 N.E. 1051, 1055.
o) To Sum, no justice, No “Day in Court” no hearing on merits.

ARGUMENT FOR REASONS GRANTING THE WRIT

27

Adequate Relief Cannot Be Obtained in Any Other Forum or Form In
Any Other Court
1. Petitioner respectfully prays for a writ of certiorari, because petitioner lack
adequate alternatives means to obtain the relief he seeks, “Mallard v. U.S. Dist.
Court for S. Dist. of Iowa. 490 U.S. 296,309, (1989).
Simply put, since the claim(s) implicate all court(s), which claims this court holds
are actionable, for e.g. claim, “See” Tennessee v. lane. (2004) 541 U.S. 509, and
which claims, the federal district court, and the 6th Circuit court personnel are
covering up, and where any attempts to obtain relief, on merits have been
exhausted and proven to be unobtainable in the lower courts, given the cover up,
fraud on the court, corrupting of the judicial process, et al, there is no other form,
recourse, other than this court, to seek justice. Petitioner simply wants his day in
court.
2.

Both the lower courts and Northern District Court. And 6th Circuit appellate

Court have obstructed justice by shutting petitioner out, despite petitioner, doing
everything necessary to obtain justice on the merits. Both courts summarily
dismissed the claims, for no good reason, and overlooked what was present on
petitioner filings, instead the courts went off the docket. Simply to avoid addressing
them on its merits, despite timely fillings.
3.

Petitioner was denied jurisdiction in the 6th Appellate Court of Appeals, despite

the showing that he was well within the court’s jurisdiction, the Northern District of
Ohio Eastern Division will not file any of petitioners filing with no just cause, and

28

no matter what petitioner files in the District court, that court sends an out dated
motion by the magistrate, saying no filings are accepted unless the court allows it.
“But that motion was ordered because petitioner was trying to put a stay in that
court, and the magistrate was preparing his Report and Recommendation, and that
is reason why the no more filings were ordered by the District Court.
4. Now no matter what petitioner files, even timely the court sends back all
petitioner filings with the attached outdated motion, leaving petitioner with no
right to redress. “See” Bridges v. Gray. 2020 U.S. App. LEXIS 25369, “See” also
Bridges v. Gray. Case No. l:15-cv-02556.et al.
Petitioner was victimized by the dismissal and re-victimized by the 6th appellate
court for not reviewing petitioner documents sent in Bridges v. Gray. Case No. 203493 of the 6th Appellate Court of Appeals.
5. When the lower courts refuse to perform its required duty, the only remaining
course of action is a writ. In fact, here the assigned individuals of the lower court
are the very individuals committing fraud on the court and judicial process.
6. The writs thus afford an expeditious and effective means of confining the
inferior court to a lawful exercise of its prescribed jurisdiction, or of compelling it to
exercise its authority, when it is its duty to do so, Ex parte Republic of Peru. 318
U.S. 578, 583, (1943); same Roche v. Evaporated- Milk assn.. 319 U.S. 21, 26
(1943) (Roche).

29

7. Writ, “where it is necessary to confine a lower court to the terms of an appellate
tribunal’s mandate, U.S. v. U.S. Dist Court. 334 U.S. 258, (1948)”, Will v. United
States. 389 U.S. 90, 95-96, (1967) (“Will”).

Exceptional Circumstances
(1) -Reasons- above, abuse and usurpation of judicial power, constitutes as
exceptional circumstance, Roche, supra 27. Instances of clear abuse of
discretion, “Bankers Life Casualty Co. v. Holland. 346 U.S. 2!12, 217,
(1953), or conduct amounting to usurpation of [the judicial] power, “De
Beers Consolidated mines. Ltd. V. United states. 325 U.S. 212, 217
(1945), to be entitled to issuance of writ”, Mallard v. U.S. Dist. Court for
S. Dist of Iowa. 490 U.S. 296, 309, (1989) (“Mallard”).
(2) -Lower court’s refusal to perform its true adjudicator role & duty, and
instead, corrupt the judicial process, constitutes an exceptional
circumstance. Here- the action[s] of lower courts nullified its purpose and
reasos for its existence, “see” La Buy v. Howes Leather Co.. 352 U.S. 249,
256-258, (1957) (“La Buy”) refused to exercise its functions; cases were
improperly referred to a master. The use of masters is to aid judges in
performance of specific judicial duties... and not displace the court. The
exceptional circumstance here warrants the use of the extraordinary remedy
of writ... Litigants are entitled to a trial by the court, in every suit, save
where exceptional circumstances are shown”, Same McClellan v. Carland.

30

217 U.S. 268, 279 (1989) (“McClellan”), where refusal by the district court
to adjudicate issues properly presented to it.
(3) Petitioner has long been sending newly discovered evidence / actual
innocence / ineffective assistance of counsel, showing he is held unlawfully,
and under the Fourteenth Amendment to the United States Constitution he
warrants full protection. But petitioner has been denied the right to redress
in the courts by the cover ups, and not filings and filing then taken off the
record and put back on the record, and sent in documents where pages are
missing. The no testing of evidence that was used to convict petitioner via a
Fifth Amendment violation to the United States Constitution.
(4) -Where circumstance [s] “inherently results in a complete miscarriage of
justice’ and present[s] exceptional circumstances”, a writ must issue, “See”
Davis v. United States. 417 U.S. 333, 346, (1974)
(5) —Petitioner has exhausted or tried to in appeal remedy, and is “shut out”
from that remedy by the Ohio Common Pleas Court, Northern District
Court, and sixth Circuit Court of Appeals, leaving petitioner with no other
avenue for justice. Exceptional circumstances amounting to a judicial
usurpation of power” will justify the invocation of this extraordinary [writ]
remedy”, Will 95. “[W]here a [lower court] judge [s] displayed a persistent
disregard of the rules of Civil Procedure promulgated by this Court, La Buy
v. Howes Leather Co.. 352 U.S. 249, 256-258, (1957)

31

(6) -Writ appropriate where the lower courts actions constituted an
unwarranted impairment of judicial branch in performance of its
constitutional duty’s”, Cheney v. TJ.S. Dist. Court for D.C.. 542 U.S. 367,
371 (2004).
(7) Pro se petitioner Andrey Bridges has a strong argument that his trial and
resulting life sentence were fundamentally unfair because the lower court[s]
withheld material exculpatory evidence. See Brady v. Maryland. 373 U. S. 83, 87
83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963). The lower court[s] offered flawed rationales
for rejecting all his claim’s. [Ineffective assistance of counsel’s; Actual/Factual
Innocence; Due Process violations of Equal Protection of the Law; his
conviction is constitutionally prejudicial against the United States
Constitution of Amendment 5, 6, 8, and 14; and that he is denied to redress
the court of law -fairly].
(8) Since the lower court’s denial held, Bridges does not have a constitutional
right, and Bridges did not present a constitutional issue to be heard; and Bridges
filed his appeal late leaving the Sixth Circuit without jurisdiction.
“But” it is apparent and can be seen on the face of the record, his issues are of
constitutional magnitude of violations.
Bridges is serving a life sentence with possibility of parole with 20 years and 6
months in an Ohio state prison, having been convicted in 2013 of murder,
tampering with evidence, and gross abuse of corpse.

32

The State’s case at his trial featured only testimony from the real killers as police
reports directly implicated them. The experts did not or could tie the scientific
evidence to the murder, without the detectives finding.
(9) However, the detective told the true killers to get an alibi after questioning. In
which their alibi in trial was separate and different from police reports, evidence
and testimony that was used to convict Bridges. There is also new information that
was not investigated, that the date of the murder the state assert, the victim was
alive. This could change the outcome of the proceeding, because Bridges were not
living at the resident then, “see” 60 (b) application filed in Sixth Circuit court of
Appeals Case No. Bridges v. Gray. l:15-cv-02556, and Bridges v. Gray, 2020 U.S.
App. LEXIS 31667, Bridges v. Gray, 2020 U.S. App. LEXIS 25369, and Case No.
(19-3297), and (20-3493).
Also to the fact that the evidence that was shown and used to convict
Petitioner, was not tested. “See” State of Ohio v. Andrey Bridges / Andrey L.
Bridges Case No Cr. 574201-A Trial transcript at: (T.1-1514) but can be seen, VIA
Bridges v. Sloan Case No. l:15-cv-02556 Doc# 1- DoC#37, in which the detective
requested it to be tested, but never were. However, the only thing the state experts
could go off was the detective findings.
To this date; Bridges continually argue his innocence.
(10) “[Njormally, you will not see a guilty person stand and fight for his innocence
and freedom as Bridges. This what’s make this case exceptional to hear, a
United States citizen trying to redress the courts in all applicable standing only to

33

be waived off because he is pro se, and showing manifest miscarriages of justice and
manifest injustice of broken Constitutional rights, however denied and overlooked.
Or refused to file.
Upon being convicted, Bridges discovered new evidence that his counsel had and
reports that the detectives had, and evidence off of the internet demonstrating his
innocence. That was not fully investigated nor presented to the jury.
As it turns out, the lower court, upon Bridges fight to prove his innocence places
his claims off the record in post-conviction pleadings, then when Bridges file the
claims in that proceeding, the lower court then places the claims back on the record,
stating the claims should have been raised on appeal.
(11) Shortly after the trial ended, Bridges requested any information on his case
from the Ohio state prosecutor, trial attorneys, and arresting officer. All sent some
of the record and that is when Bridges reviewed the record and discovered evidence
was left out that demonstrated his innocence. “See” in the Northern District of the
Eastern Division, Case; Bridges v. Sloan. l:15-cv-02556; Doc#33 and also
Footnote of the Report and Recommendation Doc#47 Pageld#5663; Bridges
properly filed the record that respondent left out, however, it was not filed for
docketing. This shown the lower court the innocence of Bridges, and what makes
him innocent of the crime. And wrongfully convicted, and held unconstitutionally.
(12)

Because the denial of his filings in the lower courts is not of the standards of

Equal Protection under the United States Constitution, and against the rights that
are protected by the United States Constitution.

34

The act of the lower court[s] has so infringed upon the right that damages the
integrity of justice and the right to be protected by the Constitution. This is stated
because the lower court[s] in Bridges case has denied him:
Amendment 6 Rights of the accused. In relevant part; have compulsory process
for obtaining witnesses in his favor, and to have the Assistance of Counsel for his
defense.
Amendment 8 against cruel and unusual punishment. The Supreme Court
has held that the Eighth Amendment prohibition against the infliction of cruel and
unusual punishments not only is applicable to the Federal Government, but also is
applicable to the states on the basis of the due process clause of the Fourteenth
Amendment. (§ 3, infra.) 33 L. Ed. 2d 932
Amendment 14 Equal protection of the law. Sec. 1. [Citizens of the United
States.] All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.
Of course, this court will see and finding that Bridges constitutional rights clearly
were violated, would also necessarily imply that he is innocent of the serious crimes
of which he was convicted; and Bridges could not be reconvicted after a fairer
proceeding. See Kyles. 514 U. S., at 434-435, 115 S. Ct. 1555, 131 L. Ed. 2d

35

490. Also the weighty question; is Bridges “in custody in violation of the
Constitution. This could be determined of by allowing appellant to present his case
in this “Honorable Court; since:

(13) THE LOWER COURT[s], PANAL DECISION HAVE MISTANKENLY
OR OVER LOOKED THE DATES TO WHAT IS BEING APPEALED, AND
DENIED A CONSTITUTIONAL RIGHT TO REDRESS, AS OF RIGHT, AS
PROTECTED BY THE FIRST AMENDMENT OF THE UNITED STATES
CONSTITUTION:
(14) THE DISTRICT FAILED TO LAWFULLY SUBMITT AND REVIEW
HIS TIMELY 60(B), THAT RAISED FEDERAL AND UNITED STATES
CONSTITUTION VIOLATIONS OF EQUAL PROTECCTION AND DUE
PROCESS OF LAW, HELD UNDER THE FIRST, FIFTH, AND
FOURTEENTH AMENDMENT OF THE UNITED STATES CONSTITUTION

APPLICABLE LAW THAT WAS NOT FAIRLY REVIEWD
Andrey Bridges-Appellant, hereby petitions for his day in court and for redress of
grievances under the First Amendment of the United States Constitution and of the
August 10. 2020. panel decision in Bridges V. Gray, to address that portion of the
decision which appeal No. 20-3493 is dismissed for lack of jurisdiction. Invoke of
this court attention is of importance of consideration where it is appropriate for a
number of reasons.
1)

First, the panel may have mistakenly held; While appeal No. 19-3297 was

pending, Bridges filed a Federal Rule of Civil Procedure 60(b) motion to reopen
his habeas case. The district court denied the Rule 60(b) motion on July 12, 2019,
for lack of jurisdiction. On April 22, 2020, Bridges filed a notice of appeal

36

from [*21 the order denying his Rule 60(b) motion. This is not accurate because
petitioner filed an appeal from the March 20. 2020. and also appealed the
reconsideration following that filing. “See” time stamped on filing of case No.
l:15-cv-02556 Doc# 70; (Attachments).
2)

Second, “Respectfully” directing this panel to the August 10, 2020, Order that

held: Every federal appellate court has a special obligation to satisfy itself not only
of its own jurisdiction, “But” the holding also held that, of the lower courts in a
cause under review, even [if] the parties are prepared to concede it... . When the
lower federal court lacks jurisdiction, The Sixth Circuit Appellant Court have
jurisdiction on appeal, not of the merits but merely for the purpose of correcting the
error of the lower court in entertaining the suit." Steel Co. v. Citizens for a
Better Env't. 523 U.S. 83, 95, 118 S. Ct. 1003, 140 L. Ed. 2d 210 (1998) (citations
and edits omitted) (stating that there is no "doctrine of hypothetical
jurisdiction"). Standing is an aspect of justifiability, Warth v. Selden. 422 U.S.
490, 498,95 S. Ct. 2197, 45 L. Ed. 2d 343 (1975), and "a plaintiff must demonstrate
standing for each claim he seeks to press. DaimlerChrvsler Corn, v. Cuno. 547
U.S. 332, 126 S. Ct. 1854, 1867, 164 L. Ed. 2d 589 (2006). The "irreducible
constitutional minimum of standing" comprises three requirements: injury in fact.
causation, and redressability. Steel Co.. 523 U.S. at 102-03. Yet this is true
“However”:
The district court did not obtain legal authority of petitioner 60 (b) application,
nor did it reserve an option for appellant to appeal, because of no finding of fact of
37

conclusion of law. And Sixth Circuit Court had taken over jurisdiction by way of
pending appeal. And if appellant would have appealed it is a chance that court
would have “liberally construed” his motion as a successive habeas corpus at that
time.
3. Third, the panel may have mistakenly overlooked the supporting documents that
was foretelling the refusal(s) of the District Court, from allowing appellant to file
his timely 60(b) application, and denying appellant the chance to file his timely
60(b) application, as well as; the motion demonstrated new evidence, and overlooked
or mistakenly unconstitutional tactics in petitioner habeas proceedings;, as well as
overlooked filings in the district court; which lead to multiple “miscarriages of
justice”, and that was believable reason why the habeas Corpus was
denied. Still, innocence shows, and Constitutional violations is displayed.
4. Fourth, and

Finally, “Respectfully Stated” the panel opinion unnecessarily

complicates the fundamental right to redress the wrongs of the lower courts. As
held under the First, Amendment of the United States Constitution, and
protected by the Fourteenth Amendment of the United States
Constitution, and held for review under Due Process and Equal Protection
of the Law under the United States Constitution. Since the lower courts
failed to adjudicate, and refuse to file petitioner constitutional and give
him the right to redress the violations.
CONCLUSION

38

I

is- .
te-------

1. This petition is drafted for hearing(s) of importance and ordinarily is
respectfully moved for appropriate consideration by the full court, because the
petition is necessary to secure or maintain uniformity of its August 10, 2020

•;

decisions, and , the proceeding involves a question of exceptional importance as to
•v,

redress the courts as protected by the First Amendment of the United States
Constitution and under the Fourteenth Amendment to the U.S. Constitution, as
protected by Due process and of Equal protection of the law.
2. As it maybe thinkable, it also maybe applicable in the instance, that this
request to invoke is appropriate in this extremely unusual case, and it is submitted
to cure a gross injustice. “See” Church of Scientology v. Foley, supra, note 18, 205
U.S.App.D.C. at 370 n.46, 640 F.2d at 1341 n.46.
3. Petitioner did timely file the appeal and, although the timely filing of a notice
of appeal is a jurisdictional prerequisite for perfecting an appeal” See” United
States v. Robinson. 361 U.S. 220, a liberal view of papers filed by indigent and
incarcerated defendants, as equivalents of notices of appeal, has been used to
preserve the jurisdiction of the Courts of Appeals. See, e.g., Lemke v. United
States. 346 U.S. 325.

■j

4. When petitioner filed his 60(b) application while the appeal was pending in the
Sixth Circuit Court of Appeals, that court and the district court did not rule on the

»

1

merits of the case, nor reviewed the filings, the. clerk sent all filings back to
petitioner; and petitioner could not develop any argument because the lower court
determined that it could not entertain Doc#63 motion citing and quoting- Post v.
»
f

i

39

1

j

(2) Effect on Finality. The motion does not affect the judgment’s finality or suspend
its operation.

7. This is what petitioner did, he “Waited” until he had a good
opportunity to submit the claim to the district court for a fair review, once
the appeal was decided, and that the district court would have
jurisdiction. “Yet” the district court filed it, refused to review it, and sent an
order back dating to Doc#45, as well as petitioner new 60(b) filings and
timely reconsiderations back to petitioner, “see” DOC#70 and attachments dates.
And so petitioner submitted in the Sixth Circuit Court of Appeals (appeal No. 203493) Doc #70 with, attachments and filed dates of the new 60(b) that was sent back
and never determined or reviewed by the district court. In fact, a demonstration of
the filings of the first 60(b) is different from Doc#64 of 7-12-2019 first 60(B)
application, to the March 20, 2020 filings; of this appealed filings.
Therefore, the lower court [s] did overlooked the filings and dates of the
filings and dismissed appeal on lack of jurisdiction, mistakenly ordering
as the appeal was filed late.

(8) Petitioner prays for the above stated and requested

41

